CERTIFICATE OF SERVICE
No. 19-309
John C. Carney, Governor of Delaware,
Petitioner,
v.
James R. Adams,
Respondent.
I, Virginia A. Seitz, do hereby certify that, on this seventh day of October,
2019, I caused three copies and an electronic copy of the Brief of Amici Curiae
Former Chief Justices of the Delaware Supreme Court in Support of Petitioner in
the foregoing case to be served by overnight commercial carrier, and by email, on
the following parties:
MICHAEL W. MCCONNELL
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(202) 879-5000
mcconnell@law.stanford.edu
Counsel for Petitioner

DAVID L FINGER
Finger & Slanina, LLC
1201 Orange Street
One Commerce Center, Suite 725
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgraup.com
Counsel for Respondent
/s/ Virginia A. Seitz
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

